            AUDIT REPORT
SMITHSONIAN INSTITUTION ORGANIZATIONAL 

         CHECKING ACCOUNTS 


             Number A-02-10 


              April 16,2003 

                                       SUMMARY

The Office of the Inspector General audited Smithsonian Institution bank accounts. The
purpose of the audit was to assess whether bank account internal controls were
functioning effectively. Our audit was limited to 11 organizational checking accounts.

Generally, internal controls and safeguards over organizational checking accounts were
inadequate to reduce the risks of loss or unauthorized use of Smithsonian funds to an ac-
ceptable level. Although our audit disclosed no instances of defalcation, we believe that
reasonable alternatives for most transactions currently accomplished thorough organiza-
tional checking accounts exist. Consequently, we made seven recommendations to im-
prove Smithsonian bank account management. In summary, the recommendations are as
follows:

           Perform re-certifications of all checking accounts and close those accounts
           deemed unnecessary;

           Revise, update, and issue policies and procedures that relate to organizational
           checking accounts and purchase cards; and

           Perform periodic compliance reviews to ensure that controls are operating ef-
           fectively.

The Institution Comptroller concurred with the audit recommendations. Overall, we be-
lieve that the corrective actions taken and planned are responsive to the recommenda-
tions.
                                                TABLE OF CONTENTS 


                                                                                                                                      PaRe 

1. Introduction .......................................................... ..................................................................1 

                                                                              ,


                                                                                           ...............................................1 

     A. Purpose .............................................................................

                                                                                 ....................................................1 

       B. Scope and Methodology ....................................................
       C. Background .......................................................................................................................1 


                                                                       .
2. 	Results ofAudit ..............................................................................................................................
                                                                                                                                                3


       Institution Organizational Checking Accounts .........................................................................
                                                                                                                          3


Appendix A. Management Comments from Catheryn Hummel, Comptroller ..............................9 





                                     ABBREVIATIONS AND ACRONYMS

                                 CFO                              Chief Financial Officer
                                 OC                               Ofice of the Comptroller
                                    INTRODUCTION

A. Purpose

The purpose of the audit was to evaluate Institution internal controls for organizational
checking accounts.

B. Scope and Methodology
                      -.

Our audit was conducted from August 5,2002, to February 28,2003, in accordance with
generally accepted government auditing standards. We reviewed 11 of 14 Institution
checking accounts. Our methodology included the following:

       identifying and reviewing applicable policies and procedures related to financial
       accounting and organizational checking accounts, and

       evaluating organizational checking account transactions.

We reviewed financial and procurement policies, procedures, and controls. As part of our
review, we interviewed staff from at least 12 Smithsonian units:

       Office of the Comptroller (OC);

       Office of Contracting;

       Office of the Treasurer;

       Center for Folklife and Cultural Heritage;

       Smithsonian Marine Station at Fort Pierce;

       Smithsonian National Museum of Natural History Arctic Studies Center;

       Smithsonian Environmental Research Center;

       Smithsonian Tropical Research Institute;

       Smithsonian Astrophysical Observatory;

       The Smithsonian Associates;

       National Zoological Park; and

       Cooper-Hewitt, National Design Museum.

Through interviews and transaction reviews, we gained an understanding of the controls
and practices employed concerning organizational checking accounts.
The following points were considered throughout our audit: Adequate separation of du-
ties between individuals authorized to write, reconcile, and request check transactions,
and the availability and use of alternatives to checking accounts. We conducted inter-
views to determine current check writing and account reconciliation processes, as well as
the processes involved in establishing and re-certifying accounts. Through interviews, we
gained an understanding of existing internal controls associated with the Institution's
bank accounts.



The Chief Financial Offlcer (CFO) issued a 2002-2006 Strategic Plan dated March 15,
2002 that identifies the CFO as responsible for the financial integrity of the Institution.
The CFO is responsible for establishing financial policies and standards for the Institution
to ensure fiscal discipline. The OC is responsible for preparing and maintaining the Insti-
tution's official accounting and financial records, reports, and financial statements.

The first strategic goal is to set financial management standards, take responsibility, and
share commitment. This goal articulates the CFO's responsibility as steward of the Insti-
tution's resources to set financial management standards through policies and procedures
for the entire Institution, to take responsibility for Institutional compliance with policies
and procedures, and to promote financial and contracting best practices. The goal will
ensure fiscal discipline, strong internal controls, and compliance with policies and proce-
dures.
                                   RESULTS OF AUDIT

Institution Ornanizational Checking Accounts

The Institution could improve its oversight and internal controls of organizational check-
ing accounts. Specifically,weaknesses exist in organizational checking accounts concern-
ing:

       lack of segregation of duties;

       no supporting documents maintained;

       unaccountable checks;

       transaction records incomplete;

       improper and not up-to-date signatories;

       bank accounts exist without OC knowledge; and

       transactions could be paid by purchase card.

This occurred because the Comptroller's office has not critically reviewed the need for
units to maintain organizational checking accounts and check writing transactions. As a
result, accounts were maintained that may not be necessary, were not used for intended
purposes, and were used without authority.

Background

The scope of our review consisted of reviewing 11 of 14 organizational checking accounts
focusing on internal controls. We evaluated organizational checking accounts transac-
tions for the bank statement for one year: August 2001 through August 2002.

Smithsonian Directive 115,Management Controls, revised July 23, 1996,lists standards
that shall apply to Institution units. In particular, the directive requires managers to take
systematic and proactive actions to develop and implement appropriate, cost effective
management controls. It also requires that controls established shall provide reasonable
assurance that assets are safeguarded against waste, loss, unauthorized use, and misap-
propriation.

Smithsonian Directive 302, Financial Management: Payments, Policies, Systems and Proce-
dures, April 7, 1992, states that it is Smithsonian policy as well as sound business practice
to pay for goods and services that are supported by proper invoices and other approved
documents. Source documents are required to be maintained in a secure and readily ac-
cessible location for audit. Requests for organizational checking accounts must be in
writing and specifically identify the circumstances that make it impracticable to use the
Smithsonian's central purchasing system and payment systems. Directors are responsible
for ensuring that checking accounts comply with operational procedures and require-
ments. The OC is responsible for recertifying checking accounts periodically. The OC
and our office conduct reviews and audits when necessary. Operational procedures re-
quire the separation of duties: Separate employees should be assigned to authorize pur-
chases, approve the receipt of goods or services, and approve disbursements. Each or-
ganization must support each disbursement with an original invoice, purchase authoriza-
tion, evidence of receipt for goods and services, and the tax identification numbers for
independent contractors providing services. Organizations must maintain a daily check
register and account for both used and unused checks.

Records should contain the check number, date issued, payee, amount, purpose, fund
code, and account code. Banks should send bank statements to the Comptroller's office.
Organizations must not use organizational checking accounts for:

       salary;                                          establishment or replenishment
                                                        of petty cash; or
       travel;
                                                        reimbursement of employees.
       equipment or construction services;

Micro-purchases are purchases up to $2,500 for routine or occasional supplies and
services. Purchase card usage is limited to the micro-purchase threshold. A petty cash
purchase is a method of making purchases under $500 from local vendors. Petty cash use
is limited to emergency situations where the normal purchasing procedures will not result
in timely payment.

Smithsonian Directive 309, Merchant Credit Cards, September 6,2002, states that the OC
is responsible for establishing merchant credit card accounts, recording revenues, and
monitoring Smithsonian Institution merchant credit card account activity. Smithsonian
units may not establish merchant credit card accounts except through the OC.

Smithsonian Staff Handbook 314, Requisitioning - Purchase of Supplies, Equipment and
Services, March 1993,provides policies and procedures for offices to acquire supplies,
equipment, and services. Offices have the following purchase methods available: petty
cash, purchase cards, purchase order system, and blanket purchase order system. Petty
cash is available for advancing cash or reimbursing employees for small purchases of sup-
plies and services in the local area. A purchase order permits ofices to purchase goods or
services directly from suppliers. A blanket purchase agreement is a simplified method of
filling anticipated repetitive needs for supplies or services by establishing "charge ac-
counts" with qualified sources of supply.
Result of Review

We evaluated internal controls for Institution organizational checking accounts. Our
evaluation concentrated on the use of organizational checking accounts, segregation of
duties for operating the accounts, and record keeping and transaction documentation.
We determined that internal controls were weak and OC oversight for approving and re-
viewing account usage could be strengthened. Specifically,organizational checking ac-
counts lacked proper segregation of duties. For instance, segregation of duties weaknesses
existed at the Smithsonian Tropical Research Institute and the Smithsonian Marine Sta-
tion at Fort Pierce. At both, a staff member was responsible for more than one of the fol-
lowing functions: approving payments, allocating funds, making deposits, writing and
signing checks, and reconciliation of the account. During the audit, Smithsonian Tropi-
cal Research Institute management corrected the segregation of duties issue. Also at the
Marine Station at Fort Pierce, in order to reimburse their unit's petty cash, the adminis-
trative officer often wrote checks payable to the administrative officer.

In addition to segregation of duties weaknesses, transactions records and supporting
documentation were not readily available for audit or were incomplete. Cooper-Hewitt
Museum for example was unable to provide complete transaction records and supporting
documentation for the audit. In addition, numerous checks were unaccountable and in-
dividuals were signing checks who were not signatories of the account. A similar situation
existed at the Smithsonian Environmental Research Center with records and supporting
documentation unavailable for audit.

Based on our review, most transactions could have been made with purchase cards. For
example, we determined that units used checking accounts for paying the following:

       travel;                                          replenishment of petty cash;

       salary;                                          refreshments; and

       services and vendors;                            merchant credit card accounts.

       postage;

We also determined that some units have established merchant credit accounts with Wal-
Mart Stores and Home Depot. Units purchase items from these merchants and use the
organizational checking account to pay for the items purchased. In some instances, pay-
ments were late and the same staff person purchased the items and also wrote the pay-
ment checks. We were also able to identify an organizational checking account not listed
on Comptroller's records. A checking account was established by the National Zoological
Park to support field advances for the Golden Lion Tamarin Project. The account was
also used to provide deposits and advances for researchers. According to Department of
Conservation Biology staff, there were about four similar checking accounts.

Additionally, for most accounts reviewed, we identified that signatories for the accounts
have not been updated and contained former employees including the former Comptrol-
ler. We also determined that a Smithsonian Tropical Research Institute checking account
used to pay employees maintains an increasing balance resulting from payroll withhold-
ing of about $14,000 as of September 2002.
Current policies were not always followed, were sometimes vague, and were not specific
regarding oversight responsibilities. OC did not critically review the need for units to
maintain organizational checking accounts. The most recent organizational checking ac-
count reviews were performed in 1999. Although, OC does perform some reconciliation
of accounts, they have not performed any transaction level reviews.

As a result, unnecessary accounts were maintained, not used for intended purposes, and
used without appropriate authority. Without clear policies and procedures, staffs are un-
aware of their administrative and oversight duties.

Conclusion

Improving oversight and performing transaction level reviews supports the CFO's strate-
gic goal of fiscal discipline through internal controls. Enforcing controls also strengthens
the financial integrity of the Institution and minimizes cash management risks. In addi-
tion, removing organizational checking accounts and encouraging the use of the purchase
card should increase efficiencies and the overhead required to maintain the accounts.

Recommendations

We recommended that the Comptroller:

    1. Perform a re-certification of organizational checking accounts.

Management Comments

Concur. The Office of the Comptroller (OC) will perform a re-certification of all 14 In-
stitution checking accounts and will also investigate for initial certification the potential 1
to 5 checking accounts referenced in the audit as ones for which OC had no knowledge.
Target date for completion of all re-certifications will be September 30,2003.

Office of the Inspector General Response 


The Comptroller's actions are responsive to the recommendation. 


    2. Close unnecessary organizational checking accounts.

Management Comments

Concur. OC will close unnecessary organizational checking accounts based upon results
of the re-certifications. Target date for completion will be December 31,2003. 


Office of the Inspector General Resvonse 


The Comptroller's actions are responsive to the recommendation. 

    3. 	 Maintain proper documentation and justification in an orderly, easily accessible
         manner for audit.

Management Comments 


Concur. OC will develop procedures for the maintenance of organizational checking ac- 

count information to include managerial oversight of information retention practices. 

Target date for development of procedures will be September 30,2003. 


Ofice of the Inspector General Response 


The Comptroller's actions are responsive to the recommendation. 


   4. 	 Update and revise the current accounting and financial polices to include current
       offices and the establishment of credit accounts.

Management Comments 


Concur. OC will revise Smithsonian Directive 302, Financial Management: Payments, 

Policies, Systems, and Procedures, to include current offices and the establishment of credit 

accounts. Target date for revision will be September 30,2003. 


Office of the Inspector General Response 


The Comptroller's actions are responsive to the recommendation. 


    5. 	 Issue policy requiring the use of the SI purchase card for purchases as defined in
         Smithsonian Directive 314.

Management Comments 


Concur. OC will revise Smithsonian Directive 302, Financial Management: Payments, 

Policies, Systems, and Procedures, to include the requirement of use of purchase cards for 

purchases as defined in SD 314. Target date for revision will be September 30,2003. 


Ofice of the Inspector General Response 


The Comptroller's actions are responsive to the recommendation. 

   6. 	 Establish a process for performing periodic compliance reviews to ensure internal
        controls are operating effectively.

Management Comments

Concur. OC will develop a process for the performance of compliance reviews of organ-
izational checking accounts and will add this type of review to the OC annual compliance
review cycle. Target date for submission of the proposed process will be September 30,
2003.

Ofice of the Inspector General Resvonse

The Comptroller's actions are responsive to the recommendation.

   7. 	 Determine how to transfer STRI withholding funds to the appropriate account,
       and ensure the withheld amounts are in accordance with regulatory guidance.

    -
Management Comments

Concur. OC will analyze STRI withholding funds to determine the appropriate account
to transfer the funds and will ensure the withheld amounts are processed appropriately in
compliance with regulatory guidance.

Office of the Inspector General Resvonse

The Comptroller's actions are responsive to the recommendation.
Appendix A. Management Comments From Catheryn Hummel, Comptroller, Ofice of
the Comptroller



10               Smithsanian Institution

I	               Ofticc of 1hs Comptroller
                                                                                                       I
       D~IL      April 8, 2003
         TO      Thomas D. Blair
                 Inspector General
          cc 	   Alice Maroni 

                 Chref Financial Ofher 

       Fmln 	


     Subject 	
                 Catheryn Hummel
                 Comptroller                 e u
                 Management Comments to Draft Report on Audit of Smithsonian lnstltution 

                 OrgankationalChecking Accoutds 

                 I have r e v i ~ your
                                   d draft reoort anb wncur with eech of the recommendations
                 oresented. ~ r o m an intemal'contfol standpoint, the issues you have discove&d
                 are disconcertina. I am committed lo address and resolve these internal control
                 weaknesses. ~ljecficall~,  my offie will perform the corrective action identifiedIn
                 the paragraphs belaw for the seven findings identified.

                 1. 	     Perform a re-certificationof organizationalchecking accounts.
      
 .-                                   Concur. The O f f i of the Comptroller (OC) wlll
                 perform a re-certificationof all 14 Instiition checking accounts and wlll also
                 investigate for initial cerlificalion(he potential 1 to 5 checking accwnts
                 referenced in the audit as ones for which OC had no knowledge. Target date for
                 completion of ell re-certifications will be September 30,2003.
                 2. 	 Close unnecessaryorganizational checking accounts.
           
 :-                         Concur. OC will dqse unnecessary otganlzational
                 checkina accounts based umn mults of the re-oert'iaelions. Target date for
                 &rnplekn will be ~ecember31,2003.

                 3. 	 Maintain proper documentation and justiflcatiin in an orderly, easily
                      accessible manner.

                 Manauernent Comment: Concur. .OC will develop procedures tor the
                 maintenance of or(ranizaLonal checking account infomation to include
                 managerialoversGht of int6matlon relenti~npractices. Target date for
                 development of procedures will be September 30.2003.
                 4. 	 Update end revise the cutrent accounting and financial policiesand
                      procedures to Include current offees and the establishment of credlt
                         accounts.

                  Vicm BuildingSuim UUO
                  7~GkStrrcrNW,MRC967
                  Wairshmlpai DC XI56WK7
                  202,ns2020 T t k p r n
                  m 2 775 n.sx hw
Appendix A. Management Comments From Catheryn Hummel, Comptroller, Office of
the Comptroller Continued




      Manaaement Commenl: Concur. OC will revise Smithsonian Dlrectlve 302,
      FinancialManagement: Payments, Pdicies, Systems end Pmcedums, to include
      current offices and the establishment of credit accounts. Target date for revision
      will be September 30,2003.

      5. 	 Issue policies and procedures requiring Ihe use of purchase cad8 for
           purchases as deflned in Srnithsonian Diredive 3 14.

      Manaaement Comment: Concur. OC will revise Smithsonian Directive 302,
      FinancialManagement: Peyments, Pollcles, Systems and Pmcedures, to include
      the requirement of use of purchase cards for purchases as deflned in SD 314.
      1arget date for revisionwill be September 30,2003.
      6. 	 Establisha process for performing perlodie compliance reviews to ensure
           that internal controls are operating effectively.

      Manaaernenl Comment; Concur. OC will develop a process for the
      performance of compliance reviews of organizational checking accounts end will
      add this type of review to the OC annual &mpliance review & A e . Target date
      for submission of the pmposed process will be September 30,2003.

      7. 	 Determine hw to transfer SmithsonianTropkal Research Institute (STRI)
           withholding funds to the appropriate account and ensure the withheld
           amounts are in accordance w#h regufatary guidance.

      ManaciementComment: Concur. OC wlll analyze STRI withholding fundsto
      determine the appmprlate account to transfer the funds and will ensure the
      withheld amaunts ere processed appropriately in compliancewith regulatory
      guidance.

      If you have any questions regarding the management comments, please call me
      at 2750300. 1 look forward to review of the final audi report.
